April 25, 2007

TIMOTHY C. HANEY
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

SUBJECT:          Audit Report – Efficiency Review of the Bridgeport Processing and
                  Distribution Facility – Bridgeport, Connecticut
                  (Report Number NO-AR-07-004)

This report presents the results of our audit of the Bridgeport Processing and
Distribution Facility (P&DF) (Project Number 06YG012NO001). The Bridgeport P&DF is
in the Northeast Area and this is our second report on the Bridgeport consolidation.1
The objective of this audit was to determine if a business case exists to support the
transfer of the incoming mail processing operations at the Bridgeport P&DF to the
Stamford, Connecticut Processing and Distribution Center (P&DC). The U.S. Postal
Service Office of Inspector General (OIG) initiated this review in cooperation with the
Postal Service.

We concluded there is a favorable business case to transfer incoming mail processing
operations from the Bridgeport P&DF to the Stamford P&DC. The Connecticut
Customer Service District used more resources than necessary to process its mail
volume. This consolidation would save an additional 53,000 workhours at the
Bridgeport P&DF, improve network efficiencies, and potentially upgrade delivery
service. This workhour reduction could produce a cost avoidance of over $17 million
based on labor savings over 10 years. We will report this amount as funds put to better
use in our Semiannual Report to Congress.

We made one recommendation in the report. Management agreed with our finding and
recommendation, agreed in principle with the monetary impact, and has initiatives in
progress or planned addressing the issue in this report. Management’s comments and
our evaluation of these comments are included in the report.

The OIG considers recommendation 1 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
management has completed corrective actions. This recommendation should not be
closed in the follow-up tracking system until the OIG provides written confirmation the
recommendation can be closed.

1
 Our first report concluded the Postal Service was justified in moving the Bridgeport P&DF’s outgoing mail
processing operation into the Stamford Processing and Distribution Center.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
Director, Network Processing, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Anthony M. Pajunas
    David E. Williams, Jr.
    Richard P. Uluski
    Elizabeth A. Doell
    Deborah A. Kendall
Efficiency Review of the Bridgeport                                  NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut
                                     TABLE OF CONTENTS

 Executive Summary                                                             i

 Part I

 Introduction                                                                 1

     Background                                                               1
     Objective, Scope, and Methodology                                        3
     Prior Audit Coverage                                                     4

 Part II

 Audit Results

     Assessment of Consolidating the Bridgeport Processing and                5
     Distribution Facility’s Incoming Mail Processing Operations
        Labor Costs                                                           6
        Mail Processing Capacity                                              6
        Mail Processing Efficiency                                            7
        Delivery Service                                                      8
        Transportation                                                        9
     Recommendation                                                           9
     Management’s Comments                                                    9
     Evaluation of Management’s Comments                                      9

 Appendix A. Northeast Area Map                                              10

 Appendix B. Prior Audit Reports                                             11

 Appendix C. Bridgeport P&DF Cost Avoidance                                  12

 Appendix D. Total Excess Letter Capacity                                    13

 Appendix E. Transportation Route Changes                                    14

 Appendix F. Management’s Comments                                           15

 Tables, Charts, and Figures

 Figure 1.     First-Class Actual and Projected Mail Volume                   2

 Chart 1.     Stamford P&DC’s Excess Letter Capacity on Tour I                7
              Compared to Bridgeport P&DF’s Incoming Letter Volume
Efficiency Review of the Bridgeport                                           NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

 Table 1.      Efficiency Effects of Moving Bridgeport P&DF’s Incoming Mail            8

 Table 2.      Delivery Service Changes                                                9
Efficiency Review of the Bridgeport                                                                   NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

                                       EXECUTIVE SUMMARY
Introduction                      This is our second report on the Bridgeport Processing and
                                  Distribution Facility (P&DF) consolidation. At management’s
                                  request, we reviewed the proposed consolidation of
                                  outgoing mail processing operations at the Bridgeport P&DF
                                  into the Stamford Processing and Distribution Center
                                  (P&DC).2 We concluded the Postal Service was justified in
                                  moving the Bridgeport P&DF’s outgoing mail operations to
                                  the Stamford P&DC. However, our analysis indicated
                                  additional opportunities may exist to further consolidate the
                                  Bridgeport P&DF’s mail processing operations. Our
                                  objective was to determine if a business case exists to
                                  support the transfer of the incoming mail processing
                                  operations at the Bridgeport P&DF to the Stamford P&DC.

Results in Brief                  The Postal Service has a favorable business case to
                                  transfer incoming mail processing operations from the
                                  Bridgeport P&DF to the Stamford P&DC. Our review found
                                  the Postal Service could:

                                           •   reduce 53,000 workhours and improve efficiency
                                               because the same mail volume could be
                                               processed using fewer workhours.

                                           •   use excess capacity to process approximately 405
                                               million additional letter pieces. Stamford P&DC
                                               could absorb the Bridgeport P&DF’s incoming mail
                                               volume of 241.7 million letter pieces.

                                           •   process Bridgeport P&DF’s incoming mail at the
                                               Stamford P&DC more efficiently and
                                               economically.

                                           •   potentially improve delivery service. Our analysis
                                               showed a net service improvement of 98
                                               upgrades with no downgrades for First-Class
                                               Mail® and Priority Mail®.

                                           •   reduce transportation costs with fewer routes as a
                                               result of the consolidation.


2
 OIG report titled Bridgeport, Connecticut, Processing and Distribution Facility Outgoing Mail Consolidation (Report
Number NO-AR-06-010, September 30, 2006).




                                                          i
Efficiency Review of the Bridgeport                                               NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

                                The Postal Service did not move the incoming mail
                                processing operations concurrent with the outgoing mail
                                operations because of concerns with capacity for the
                                additional volumes and space for additional equipment at
                                the Stamford P&DC.

                                As a result of not consolidating the Bridgeport P&DF’s
                                incoming mail processing operations with the outgoing
                                operations, the Connecticut Customer Service District used
                                more resources than necessary to process its mail volume.

Summary of                      We recommended the Postal Service conduct an area mail
Recommendation                  processing study to consolidate the Bridgeport P&DF’s
                                incoming mail processing operations into the Stamford
                                P&DC, which could result in a savings of approximately
                                $17.7 million over 10 years.

Summary of                      Management agreed with our finding and recommendation
Management’s                    and agreed in principle with the monetary impact.
Comments                        Management indicated they are in the process of conducting
                                an area mail processing study to consolidate the Bridgeport
                                P&DF’s incoming mail processing operations into the
                                Stamford P&DC. Management’s comments, in their entirety,
                                are included in Appendix F.

Overall Evaluation of           Management’s comments are responsive to the
Management’s                    recommendation. Management’s actions should correct the
Comments                        issues identified in the report.




                                                 ii
Efficiency Review of the Bridgeport                                                                   NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

                                             INTRODUCTION
Background                        At management’s request, the U.S. Postal Service Office of
                                  Inspector General (OIG) reviewed the proposed
                                  consolidation of outgoing mail processing operations at the
                                  Bridgeport Processing and Distribution Facility (P&DF) into
                                  the Stamford Processing and Distribution Center (P&DC).
                                  We concluded the Postal Service was justified in moving the
                                  Bridgeport P&DF’s outgoing mail operations to the Stamford
                                  P&DC. However, our analysis indicated additional
                                  opportunities may exist to further consolidate the Bridgeport
                                  P&DF’s3 mail processing operations. The objective of this
                                  audit was to determine if a business case exists to support
                                  the transfer of the incoming mail processing operations at
                                  the Bridgeport P&DF to the Stamford P&DC.

                                  The Postal Service is attempting to right-size its domestic
                                  network in response to declines in First-Class Mail®
                                  volume, increased competition to traditional mail products
                                  from the private sector, increased automation and mail
                                  processing by mailers, and shifts in population
                                  demographics. Despite a recent increase in mail volume,
                                  the aggregate volume of First-Class Mail declined by 5
                                  percent, or 5.5 billion pieces, from fiscal years (FY) 2001
                                  to 2006. In addition, the Postal Service projects that
                                  First-Class Mail volume will continue to decline. Figure 1
                                  shows these trends. The Bridgeport P&DF follows similar
                                  trends. The Stamford P&DC’s mail volumes increased
                                  over this period as a result of incorporating various
                                  Bridgeport P&DF mail processing operations into
                                  Stamford P&DC’s operations.




3
 After the consolidation of the Bridgeport P&DF’s outgoing mail processing operations, the Bridgeport facility became
a post office. For consistency, we are using the term P&DF rather than post office throughout this report.



                                                         1
Efficiency Review of the Bridgeport                                                                                        NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut


                                                         Figure 1. First-Class Mail Volume4

                                              FIRST CLASS ACTUAL (FYs 2001-2006)
                                          AND PROJECTED (FYs 2007-2010) MAIL VOLUME

                          120


                          100
     Pieces In Billions




                          80


                          60


                          40


                          20


                           0
                                FY 2001    FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007   FY 2008   FY 2009   FY 2010

                                                                          Fiscal Years



                                                     The Bridgeport P&DF and the Stamford P&DC are located in
                                                     the Connecticut Customer Service District, Northeast Area.
                                                     (See Appendix A for a map of the Northeast Area.) During
                                                     our review, the Bridgeport P&DF processed inbound5 mail
                                                     for Bridgeport, Connecticut, and associate offices. The
                                                     Stamford P&DC processed inbound and outbound mail6 for
                                                     Stamford, Connecticut, and associate offices and outbound
                                                     mail for Bridgeport, Connecticut, and associate offices.

                                                     The Transformation Plan states the Postal Service is
                                                     committed to improving its operational efficiency by
                                                     consolidating mail processing operations, when feasible. In
                                                     addition, the President’s Commission7 found that the Postal
                                                     Service had more facilities than needed and recommended
                                                     optimizing the facility network by closing and consolidating
                                                     unneeded processing centers.

                                                     The Postal Service uses the area mail processing (AMP)
                                                     process to consolidate mail processing functions and to
                                                     eliminate excess capacity, increase efficiency, and better
                                                     use resources. The Postal Service defines AMP as “the
                                                     consolidation of all originating and/or destinating distribution
4
  Actual mail volume came from the USPS 2005 Annual Report. The 2006-2010 projected mail volume was provided
by Postal Service.
5
  Mail intended for the processing facility’s delivery area.
6
  Outbound or outgoing mail is sorted within a mail processing center and dispatched to another facility for additional
processing and delivery.
7
  The President’s Commission on the United States Postal Service reported its findings on July 31, 2003.



                                                                             2
Efficiency Review of the Bridgeport                                                                NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

                                 operations from one or more post offices into another
                                 automated or mechanized facility to improve operational
                                 efficiency and/or service.” This process has been refined
                                 over 3 decades as mail processing has evolved from a
                                 manual and mechanized to an automated process.

Objective, Scope,                Our objective was to determine if a business case exists to
and Methodology                  support the transfer of the incoming mail processing
                                 operations at the Bridgeport P&DF to the Stamford P&DC.

                                 To assess the feasibility of consolidating the Bridgeport
                                 P&DF with the Stamford P&DC, we analyzed8 mail volumes,
                                 workhours, service measurement systems and
                                 transportation costs; evaluated machine utilization;
                                 interviewed Postal Service officials; and benchmarked
                                 achievement to target productivities with similar-sized
                                 facilities.

                                 We relied on Postal Service data systems, including the
                                 Service Standard Directory, Electronic Maintenance Activity
                                 Reporting and Scheduling, Web Complement Information
                                 Systems, the Breakthrough Productivity Initiative website,
                                 the Management Operating Data System, the Web
                                 Enterprise Information System, Enterprise Data Warehouse,
                                 Activity Based Costing System, and the Web End-of-Run
                                 System to analyze mail volume, workhours, and service.
                                 We also used data from the Transportation Contract Support
                                 System to review transportation issues. We confirmed our
                                 analysis and results with Postal Service managers.

                                 We conducted this audit from March 2006 through April
                                 2007 in accordance with generally accepted government
                                 auditing standards and included such tests of internal
                                 controls as we considered necessary under the
                                 circumstances. We discussed our observations and
                                 conclusions with management officials on January 4, 2007
                                 and included their comments where appropriate.




8
 Our analysis was similar to the requirements contained in Handbook PO-408, Area Mail Processing Guidelines.
However, AMP guidelines require additional steps, such as stakeholder notifications, before consolidations are
approved.



                                                        3
Efficiency Review of the Bridgeport                                                 NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

Prior Audit Coverage            We have issued 21 audit reports on operational efficiency.
                                As a result of these audits, the Postal Service has agreed to
                                reduce workhours by 2.3 million. These reductions could
                                produce a cost avoidance of about $697 million over 10
                                years. (See Appendix B for details.)




                                                  4
Efficiency Review of the Bridgeport                                                               NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

                                            AUDIT RESULTS
Assessment of                    The Postal Service has a favorable business case to
Consolidating the                transfer incoming mail processing operations from the
Bridgeport                       Bridgeport P&DF to the Stamford P&DC. In January 2006,
Processing and                   the Bridgeport P&DF’s outgoing mail processing operations
Distribution Facility’s          were moved to the Stamford P&DC as part of an AMP
Incoming Mail                    consolidation.
Processing
Operations                       After this consolidation, the Stamford P&DC had the
                                 capacity to process approximately 405 million additional
                                 letter pieces and could absorb the Bridgeport P&DF FY
                                 2005 incoming mail volume of 241.7 million letter pieces.
                                 This would reduce 53,000 workhours9 and improve
                                 efficiency because the same mail volume could be
                                 processed using fewer workhours. Impact on employees
                                 would be minimal and delivery service should improve. In
                                 addition, transportation costs could be reduced by
                                 approximately $270,000.

                                 Title 39 United States Code (U.S.C.) paragraph 403 (a)
                                 states, “The Postal Service shall plan, develop, promote,
                                 and provide adequate and efficient postal services…” Also,
                                 the President’s Commission included in its
                                 recommendations the need to optimize the facility network
                                 by closing and consolidating unneeded processing centers.
                                 In addition, the Transformation Plan states the Postal
                                 Service is committed to improving its operational efficiency
                                 by consolidating mail processing operations, when feasible.
                                 The Postal Service uses the AMP process to consolidate
                                 mail processing functions, eliminate excess capacity,
                                 increase efficiency, and better use resources.

                                 Postal Service management considered moving the
                                 Bridgeport P&DF’s incoming mail processing operations
                                 when preparing an AMP proposal in 2001. However, the
                                 entire process was placed on hold until 2005 and then only
                                 outgoing mail processing operations were included in the
                                 consolidation. The Postal Service had concerns with
                                 Stamford P&DC’s capacity to handle Bridgeport P&DF’s
                                 incoming mail volumes and space for additional equipment.
                                 As a result of not consolidating the Bridgeport P&DF’s
                                 incoming mail processing operations with the outgoing


9
 This includes an allowance of more than 50,000 workhours to the Stamford P&DC for processing Bridgeport’s mail
volume.



                                                       5
Efficiency Review of the Bridgeport                                                                 NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

                                  operations, the Connecticut Customer Service District used
                                  more resources than necessary to process its mail volume.

Labor Costs                       The Bridgeport P&DF could eliminate 53,000 workhours
                                  associated with mail processing operations by transferring
                                  approximately 241.7 million pieces of letter mail to the
                                  Stamford P&DC. Specifically, the Bridgeport P&DF could
                                  eliminate:

                                      •    37,000 craft workhours.

                                      •    9,000 supervisory mail processing workhours.

                                      •    7,000 maintenance workhours since the machinery
                                           would be relocated, eliminating the need for
                                           associated maintenance.10

                                  The economic impact of these reductions could produce a
                                  cost avoidance of more than $17.7 million over 10 years.
                                  (See Appendix C for details.)

                                  These workhour savings could be accomplished through
                                  attrition. By the end of FY 2011, 57 of the 95 Bridgeport
                                  P&DF employees will be eligible to retire. At the same time,
                                  198 of the 446 Stamford P&DC employees will be eligible to
                                  retire. Based on our analysis, we believe that no career
                                  employees would lose their jobs due to this consolidation.

Mail Processing                   Our review indicated that the Stamford P&DC has excess
Capacity                          capacity even after absorbing the Bridgeport P&DF’s
                                  outgoing mail volume. The Stamford P&DC has capacity to
                                  process approximately 405 million additional letter mail
                                  pieces11 and could absorb the Bridgeport P&DF’s remaining
                                  letter volume, approximately 241.7 million pieces.12 Since
                                  the majority of Bridgeport P&DF’s incoming letter mail
                                  pieces would be worked on Tour 113 at the Stamford P&DC,
                                  we also analyzed the capacity at Stamford P&DC for Tour 1
                                  operations.

                                  We found that Bridgeport P&DF’s total incoming letter
                                  volume could be absorbed within Stamford P&DC’s excess

10
   Maintenance workhours should not materially increase at the Stamford P&DC as the facility would not be receiving
any additional equipment.
11
   Flat volumes were transferred to Stamford P&DC in late summer 2004.
12
   This volume was for FY 2005.
13
   Tour 1 operations are considered to be from 2300 to 0700 hours.



                                                         6
Efficiency Review of the Bridgeport                                                                   NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

                                capacity on Tour 1. See Chart 1 for a comparison of the
                                Bridgeport P&DF’s incoming letter volume to Stamford
                                P&DC’s excess capacity on Tour 1.

                                         Chart 1. Stamford P&DC’s Excess Letter Capacity on Tour 1
                                          Compared to Bridgeport P&DF’s Incoming Letter Volume


                                                                                        297,681,569


                                         300,000,000           241,770,286

                                         250,000,000


                                         200,000,000


                                         150,000,000


                                         100,000,000


                                          50,000,000


                                                  0
                                                       Bridgeport Overall    Stamford Tour 1 Excess
                                                            Volume                  Capacity



                                The consolidation of the Bridgeport P&DF’s incoming mail
                                processing operations could be achieved by increasing the
                                operating time on the Delivery Bar Code Sorters by 1.82
                                hours on Tour 1 at the Stamford P&DC. See Appendix D
                                for a chart showing the Bridgeport P&DF’s incoming mail
                                volumes and the Stamford P&DC’s excess capacity by the
                                type of equipment.

Mail Processing                 We found processing the Bridgeport P&DF’s incoming mail
Efficiency                      at the Stamford P&DC would be more efficient and
                                economical. For FY 2005, the Stamford P&DC’s
                                performance achievement was 71 percent. After
                                consolidation of Bridgeport’s outgoing mail processing
                                operations, we projected that the Stamford P&DC’s
                                performance achievement would increase to 72.7 percent.
                                We found from January 1 through August 31, 2006, the
                                Stamford P&DC’s performance achievement increased to
                                73.0 percent.

                                With the addition of the Bridgeport P&DF’s incoming mail



                                                          7
Efficiency Review of the Bridgeport                                                                       NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

                                    volumes, the Stamford P&DC’s performance achievement
                                    should increase to 81.6 percent.14 This additional workload
                                    represents 19.8 percent of Stamford P&DC’s total workload.

                                    These additional efficiency gains could be achieved by
                                    using excess capacity and existing available tour time at the
                                    Stamford P&DC. Table 1 shows the effects on Stamford
                                    P&DC’s productivity as a result of processing Bridgeport
                                    P&DF’s incoming mail.

             Table 1. Estimated Efficiency Effects of Moving Bridgeport P&DF’s Incoming Mail15

                                       Stamford P&DC After         Bridgeport P&DF       Stamford P&DC After
                                     Consolidation of Bridgeport   After Transfer of   Consolidation of Bridgeport
                                       P&DF Outgoing Mail           Outgoing Mail        P&DF’s Incoming Mail
 Mailpieces Processed (Total              1,833,073,940              362,384,868            2,195,458,808
 Pieces Handled)

 Function 1 Workhours                         751,694                   87,458                  801,928
 TPH per Workhour                              2,439                                             2,738
 Target Per Workhour                           3,356                                             3,356
 Percent BPI – FY 2005                         72.7%                                             81.6%



Delivery Service                    Delivery service should improve as a result of the
                                    consolidation of the Bridgeport P&DF’s incoming mail
                                    processing operations into the Stamford P&DC. Our
                                    analysis showed there would be 313 upgrades and 215
                                    downgrades, resulting in a net service improvement of 98
                                    upgrades. We identified no downgrades for First-Class and
                                    Priority Mail. Table 2 shows our analysis of delivery service
                                    changes.

                                                           Table 2. Delivery Service Changes

                                                              Analysis of 3-Digit Pairings
                                                                     Upgrades Downgrades             Net
                                               Priority Mail®                51                0        51
                                               First-Class®                   9                0         9
                                               Periodicals                   36                0        36
                                               Packages                     177            (209)      (32)
                                               Standard Mail®                40              (6)        34
                                               TOTALS                       313            (215)        98




14
     We used the average performance achievement of the top 10 similar-sized facilities.
15
     Based on FY 2005 data from the Plant Level Scorecard.



                                                               8
Efficiency Review of the Bridgeport                                                                   NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut


Transportation                    Transportation costs should decrease by approximately
                                  $270,000 annually as a result of the consolidation.16 Our
                                  analysis showed that four routes could be eliminated and
                                  seven other routes could be changed. See Appendix E for
                                  transportation route changes.

Recommendation                    We recommended the Vice President, Northeast Area
                                  Operations:

                                       1. Consolidate the Bridgeport Processing and
                                          Distribution Facility’s incoming mail processing
                                          operations into the Stamford P&DC, following the
                                          requirements of Handbook PO-408, Area Mail
                                          Processing Guidelines. This consolidation should
                                          result in a savings of approximately $17.7 million over
                                          10 years.

Management’s                      Management agreed with our finding and recommendation,
Comments                          and agreed in principle with the monetary impact. 17
                                  Management indicated they are in the process of conducting
                                  an area mail processing study to consolidate the Bridgeport
                                  P&DF’s incoming mail processing operations into the
                                  Stamford P&DC.

Evaluation of                     Management’s comments are responsive to the
Management’s                      recommendation. Management’s actions should correct the
Comments                          issues identified in the report.




16
   Because our analysis of transportation savings was subjective, the results were not included in determining the
$17.7 million in cost avoidance identified in this report.
17
   In a supplemental e-mail dated April 19, 2007 to their original comments, management agreed with the finding and
recommendation. However, they stated that the need for additional resources will reduce the identified savings. Our
report included an allowance of more than 50,000 workhours to the Stamford P&DC for processing Bridgeport
P&DF's mail volume. This is approximately 20,000 more workhours than the 31,000 identified in their management
comments as being required to process the mail. Based on our analysis, reduction of identified savings, if any, would
be insignificant.



                                                          9
Efficiency Review of the Bridgeport                     NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

                                       APPENDIX A
                                   NORTHEAST AREA MAP




                                           10
Efficiency Review of the Bridgeport                                                      NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

                                        APPENDIX B
                                    PRIOR AUDIT REPORTS

                                                          Report                Workhour     Monetary
                       Audit                             Number     Issue Date  Savings        Impact
Los Angeles, CA, Worldway AMC                          NO-AR-06-006   9/12/2006    760,000 $ 192,000,000
Carrier Sequence Barcode Sorters                       NO-AR-06-005    8/2/2006     10,521      3,700,000
Washington BMC                                         NO-AR-06-003   2/22/2006    400,000    118,000,000
Chicago ISC AMRU                                       NO-AR-06-002 12/22/2005       3,860      1,100,000
Canton, OH P&DF                                        NO-AR-05-013   9/22/2005    202,000     63,600,000
San Francisco, CA ISC AMRU                             NO-AR-05-012    9/6/2005      7,757      2,600,000
Los Angeles, CA ISC                                    NO-AR-05-011   6/17/2005     85,000     26,100,000
Los Angeles, CA ISC AMRU                               NO-AR-05-010   4/28/2005      5,450      1,800,000
Akron, OH P&DC                                         NO-AR-05-009   3/30/2005    235,000     74,000,000
Mansfield, OH Main Post Office                         NO-AR-05-004   12/8/2004     52,000     17,200,000
New York ISC                                           NO-AR-04-009   9/24/2004    320,000     98,000,000
New York ISC AMRU                                      NO-AR-04-011   9/24/2004     30,000      9,300,000
San Francisco, CA ISC and GSA Facility                 NO-AR-04-006   3/31/2004    120,000     44,200,000
Oakland, CA ISC and Regatta Facility                   NO-AR-04-007   3/31/2004     25,000     17,000,000
Springfield, VA BMEU                                   NO-AR-04-004    2/9/2004      2,775        969,893
Columbia, MD BMEU                                      NO-AR-04-002 12/26/2003       3,960      1,400,000
Southern MD BMEU                                       NO-AR-04-001 12/24/2003      20,240      8,400,000
San Francisco, CA BMEU                                 AO-AR-03-002   9/25/2003     18,000      6,900,000
Los Angeles, CA BMEU                                   AO-AR-03-001   7/31/2003     28,000      9,300,000
Seattle, Minneapolis, and Des Moines BMEU              CQ-AR-03-001   3/28/2003     15,053        588,730
Colorado/Wyoming Performance Cluster BMEU              CQ-AR-02-001   9/26/2002     15,947      1,000,000
                                  Total Savings                                  2,360,563 $ 697,158,623


                                                Acronyms
                            AMC          Airport Mail Center
                            AMRU         Air Mail Records Unit
                            BMC          Bulk Mail Center
                            BMEU         Business Mail Entry Unit
                            GSA          General Services Administration
                            ISC          International Service Center
                            P&DC         Processing and Distribution Center
                            P&DF         Processing and Distribution Facility




                                                       11
Efficiency Review of the Bridgeport                                            NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut



                                  APPENDIX C
                       BRIDGEPORT P&DF COST AVOIDANCE
                           (FUNDS PUT TO BETTER USE)


                                                         Time Frame: Ten Fiscal Years

Recommended Action and                                                   Discounted
         Employee                        Workhour      Undiscounted      Savings (Net
    Category Impacted                    Reduction       Savings        Present Value)
Consolidation:                                 9,000       $4,188,716         $3,254,458
Supervisors18
Consolidation:                                24,700       10,247,876              7,962,171
Mail processing clerks19
Consolidation:                                12,300        4,874,455              3,787,247
Mailhandlers20
Consolidation:                                 7,000        3,521,724              2,736,231
Maintenance clerks21
Total                                         53,000      $22,832,771         $17,740,107

Notes:
   • Cost avoidance was based on FY 2005 workhours and calculated using the workhour
       reduction multiplied by the fully loaded labor rate.
   • Labor cost was escalated at 2 percent.
   • Net present value was calculated using the discount rate of 5.25 percent.
   • Fully loaded labor rates are based on the Postal Service’s FY 2006 published rates.
   • Labor cost escalation was based on the Postal Service’s FY 2006 published Decision
       Analysis Factors.

Funds Put to Better Use: Funds that can be used more efficiently by implementing
recommended actions.




18
   Pay Level 17.
19
   Pay Level 5.
20
   Pay Level 4.
21
   Pay Level 11.



                                                 12
Efficiency Review of the Bridgeport                                                               NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

                                    APPENDIX D
                           TOTAL EXCESS LETTER CAPACITY

                                                                    Stamford Processing and
                                         Bridgeport Processing and Distribution Center Excess
                                             Distribution Facility Capacity After Consolidation
Type of Equipment                          Incoming Mail Volume          of Outgoing Mail
Delivery Bar Code Sorter                         229,013,988                378,565,727
Multi-Line Optical Character                      12,756,298                 12,412,767
Reader22
Mail Processing Bar Code                                 0                                  14,017,255
Sorter
Totals                                            241,770,286                              404,995,749

                               Source: Enterprise Data Warehouse, FY 2005




22
  Mail processed on the Multi-Line Optical Character Reader at the Bridgeport P&DF can be processed on either a
Delivery Bar Code Sorter or a Mail Processing Bar Code Sorter at the Stamford facility.



                                                       13
Efficiency Review of the Bridgeport                                                NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut

                                    APPENDIX E
                           TRANSPORTATION ROUTE CHANGES

                                                                                  Dollar
                          Transportation Change                                  Amount
     Eliminate contract 06432                                                      $136,950
     Eliminate contract 06631                                                        50,063
     Eliminate contract 06690 Segment A                                             124,940
     Eliminate contract 06690 Segment B                                              86,840
     PVS23 mileage adjustment savings                                                83,321
     Reduce frequency for contract 068A3 Stamford P&DC to                            74,784
     Bridgeport P&DF
     Remove stop at Bridgeport P&DF on contract 068L0                                 1,067
     Remove stop at Bridgeport P&DF on contract 06420                                 2,615
     Add additional BMC24 trip for Stamford P&DC                                  (114,823)
     Add additional L&DC25 trip for Stamford P&DC                                 (114,376)
     Add additional trip from Southern Connecticut to Stamford P&DC                (61,609)
           Total Savings                                                          $269,773

                                Source: Transportation Contract Support System




23
   Postal Vehicle Service.
24
   Bulk Mail Center.
25
   Logistics and Distribution Center.



                                                     14
Efficiency Review of the Bridgeport                     NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut


                    APPENDIX F. MANAGEMENT’S COMMENTS




                                         15
Efficiency Review of the Bridgeport           NO-AR-07-004
Processing and Distribution Facility –
Bridgeport, Connecticut




                                         16
